         Office of Inspector General




December 5, 2006

WENDY A. HOCKING
SECRETARY OF THE BOARD OF GOVERNORS

SUBJECT:      Transmittal of Audit Report – Postal Service Board of Governors’ Travel
              and Miscellaneous Expenses for Fiscal Year 2006
              (Report Number FT-AR-07-003)

This report presents the results of our audit of the Board of Govenors’ travel and
miscellaneous expenses for fiscal year 2006 (Project Number 06BD009FT000). We
conducted the audit in response to a Board of Governors’ resolution requiring annual
audits of its travel and miscellaneous expenses.

The Office of the Board of Governors’ travel and miscellaneous expenses, totaling
approximately $63,000, and external professional fees, totaling approximately
$21,000, for the fiscal year ended September 30, 2006, were properly supported and
complied with U.S. Postal Service policies and procedures and Board of Governors
guidelines. However, our audit does not provide absolute assurance of the absence
of fraud or illegal acts, due to the nature of evidence and the characteristics of such
activities. We discussed the results of the audit with Postal Service management on
November 21, 2006. Because there were no recommendations provided,
management chose not to respond to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
Director, Financial Statements, or me at (703) 248-2100.
   E-Signed by John Cihota
ERIFY authenticity with ApproveI



John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: H. Glen Walker
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Steven R. Phelps
Postal Service Board of Governors’ Travel and                                     FT-AR-07-003
 Miscellaneous Expenses for Fiscal Year 2006


                                        INTRODUCTION
Background                    The Postal Reorganization Act of 1970, as amended,
                              established the Office of the Board of Governors (the
                              Board), comprising the Postmaster General, Deputy
                              Postmaster General, and nine governors appointed by the
                              President. As of September 30, 2006, the Board consisted
                              of the Postmaster General, Deputy Postmaster General, and
                              eight Governors.

                              The Board directs and controls the expenditures of the
                              Postal Service, reviews its practices and policies, and
                              establishes objectives and goals in accordance with Title 39,
                              United States Code. On July 8, 1986, the Board passed
                              Resolution Number 86-12, which requires annual audits of
                              the Board of Governors’ travel and miscellaneous expenses.

                              The Board of Governors generally meets monthly in
                              Washington, D.C., or other locations where members can
                              visit Postal Service facilities or large mailer operations. In
                              fiscal year (FY) 2006, the Board held nine regular meetings,
                              in addition to committee meetings. For the fiscal year ended
                              September 30, 2006, the Board incurred approximately
                              $63,000 in travel and miscellaneous expenses and
                              approximately $21,000 in external professional fees.

Objective, Scope,             The objective of the audit was to determine whether the
and Methodology               travel and miscellaneous expenses incurred by the Board
                              were properly supported and complied with Postal Service
                              policies and procedures and Board of Governors’ guidelines.

                              To accomplish our objective, we conducted fieldwork from
                              March through November 2006. The criteria used in our
                              evaluation were the Board’s Guidelines Relating to
                              Governors' Official Expenses and Postal Service travel
                              policies and procedures. We reviewed all 59 travel and
                              miscellaneous expense vouchers submitted by the Board
                              during FY 2006. We also reviewed all professional fees paid
                              to outside firms at the request of the independent public
                              accountant, Ernst & Young LLP.

                              We conducted this audit from March through
                              December 2006 in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls and accounting records, and other auditing




                                                  1
Postal Service Board of Governors’ Travel and                                     FT-AR-07-003
 Miscellaneous Expenses for Fiscal Year 2006


                              procedures, as we considered necessary. Our tests of
                              controls were limited to those necessary to achieve our audit
                              objective. Our procedures were not designed to provide
                              assurance on internal controls. Consequently, we do not
                              provide an opinion on such controls. We discussed our
                              observations and conclusions with management officials and
                              included their comments where appropriate.

                              We relied on computer-generated data from Postal Service’s
                              financial accounting systems, specifically, the Accounts
                              Payable Excellence (APEX) system. We performed specific
                              internal control transaction tests on this system’s data, to
                              include tracing selected financial information to supporting
                              source documentation. For example, we verified Board
                              travel payments recorded in APEX were properly supported
                              and authorized.

Prior Audit Coverage          We have audited the Board’s travel and miscellaneous
                              expenses for each fiscal year since FY 1998 and have not
                              identified any reportable conditions. The results of our most
                              recent audit for FY 2005 were disclosed in our report, Postal
                              Service Board of Governors’ Travel and Miscellaneous
                              Expenses for Fiscal Year 2005 (Report
                              Number FT-AR-06-001, dated November 16, 2005).




                                                 2
Postal Service Board of Governors’ Travel and                                     FT-AR-07-003
 Miscellaneous Expenses for Fiscal Year 2006


                                      AUDIT RESULTS
Audit Results                  Travel and miscellaneous expenses totaling approximately
                               $63,000, and external professional fees totaling
                               approximately $21,000, which the Board incurred in the
                               fiscal year ended September 30, 2006, were properly
                               supported and complied with the Board of Governors’
                               guidelines and Postal Service policies and procedures.
                               However, our audit does not provide absolute assurance of
                               the absence of fraud or illegal acts, due to the nature of
                               evidence and the characteristics of such activities.

Audit Comment                  We identified items that were not material to the overall
                               travel and miscellaneous expenses and external
                               professional fees and do not affect the overall adequacy of
                               internal controls. We offer this information to assist with
                               overall management and control of these expenditures:

                               •   Several expense vouchers from one governor included
                                   claims for meals just under the $75 threshold. Although
                                   a receipt is not required for expenses under $75, these
                                   repetitive claims could raise a question if reviewed
                                   externally, for example, in response to a Freedom of
                                   Information Act request.

                               •   One expense voucher was not dated. Postal Service
                                   instructions for completing the form require the date
                                   along with a signature for processing payment. Although
                                   the date is not a legal requirement for payment, it is
                                   important for a variety of control, process, and audit
                                   purposes and is a sound business practice that should
                                   be encouraged.

Management’s                   We discussed the results of the audit with management on
Comments                       November 21, 2006. Because there were no
                               recommendations provided, management chose not to
                               respond to this report.

Evaluation of                  No action by management was required.
Management’s
Comments




                                                  3
